WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-245

GEFT Outdoor, L.L.C.

v.

City of Westfield, Hamilton County, Indiana

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

[1:1 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by
r member.
Signature
Date.

September 3,

(Type or print) Name

1

Libby Y. Goodknight
0 Mr.

Firm

[1] Ms.

El Mrs.

[1] Miss

Krieg DeVault LLP

Address

One Indiana Square, Suite 2800

City & State
Phone

Indianapolis, Indiana

317-636-4341

Zip
Email

46204

lgoodknight@kdlegal.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Pamela G. Schneeman, James S. Stephenson, Richard M. Blaiklock, Josh S. Tatum

